                             AUDIT REPORT                                 IG-03-008



Report Recipients:
H/Assistant Administrator
   for Procurement                    NASA’S REDUCTION OF
JSC/AA/Director, Johnson
   Space Center                  UNDEFINITIZED CONTRACT ACTIONS
KSC/AA/Director, Kennedy
   Space Center                                   March 3, 2003
MSFC/DA01/Director,
   Marshall Space Flight
   Center



cc:
JM/John Werner, June
  Flickinger, Margy Myles,
  Margie Team
JSC/BD5/Audit Liaison
  Representative
KSC/QA-D/Audit Liaison
  Representative
MSFC/RS40/Audit Liaison
  Representative




                              OFFICE OF INSPECTOR GENERAL
                              Released by: __[original signed by]_________

                              Alan J. Lamoreaux, Assistant Inspector General for Audits
 National Aeronautics and
 Space Administration
IG-03-008                                                                                              March 3, 2003
 A-02-018-00

                                                NASA’s Reduction of
                                            Undefinitized Contract Actions


In conducting this audit, we found that NASA had significantly reduced both the number
and dollar amount of undefinitized contract actions (UCAs) since the U. S. General
Accounting Office highlighted UCAs as one reason for identifying contract management
as a major management challenge for NASA. Issuing contract changes as UCAs is a
risky way of doing business, because contractors are performing the work before the cost
is established, which increases the risk of unanticipated cost growth. On March 31, 2000,
NASA had 186 UCAs with an estimated value of more than $2 billion. On June 7, 2001,
the NASA Administrator issued a letter to senior NASA managers requiring a reduction
of at least 50 percent in the number and dollar amount of UCAs over the next year. In
addition, new NASA policy required Center Directors to approve all UCAs in excess of
$100,000. By November 30, 2002, the Agency had reduced the number of UCAs to 19
with an estimated value of $61 million (see Appendix D), which represents reductions of
about 90 percent in the number of UCAs and 97 percent in the estimated dollar value of
UCAs.

                                      Reduction in the Number and Dollar Value
                                  of UCAs from March 31, 2000, to November 30, 2002


                               2,500                                       250
                                                                                 Number of open UCAs
         Dollars in millions




                               2,000                                       200
                               1,500                                       150
                                                                                                       Dollar Value
                               1,000                                       100                         Number
                                500                                        50
                                  0                                        0
                                                                  Nov-02
                                       Mar-00


                                                Mar-01


                                                         Mar-02
The NASA Assistant Administrator for Procurement requested that we identify those
controls that were effective in reducing the number of UCAs so he could apply similar
controls to other management issues. We believe the following strong centralized
management actions at NASA Headquarters contributed to the significant reduction in
UCAs.

   •   The NASA Administrator issued a letter to senior NASA managers on the need to
       reduce UCAs.
   •   NASA changed the UCA approval process by requiring Center Directors to
       approve all UCAs in excess of $100,000 instead of the previous approval level of
       $1 million.
   •   The Assistant Administrator for Procurement required Centers to report the
       number and dollar value of UCAs to Headquarters on a monthly basis.

Furthermore, Center Directors placed greater emphasis on the consideration of UCAs as a
management issue rather than a procurement issue. NASA must continue to be vigilant
in managing UCAs in order to limit their use to an exception basis for urgent
requirements only, as required by the Federal Acquisition Regulation (FAR) and the
NASA FAR Supplement.

Categorizing and Reporting UCAs

NASA could further improve its policy by categorizing and reporting as UCAs,
undefinitized contract changes in excess of $100,000 but below contract dollar threshold
levels. Contract dollar threshold levels are the contract-specific levels below which
changes can be made without further negotiation. The dollar threshold levels vary among
contracts and can be as high as $1 million.

The three Centers we reviewed had differing policies for classifying and reporting
changes above $100,000 but below contract dollar threshold levels: Johnson Space
Center (Johnson) and Marshall Space Flight Center (Marshall) treated such changes as
UCAs, but Kennedy Space Center (Kennedy) did not (see Appendix E). Kennedy
allowed for contract changes below the contract dollar threshold to take place without
being treated as UCAs, which could cause inaccurate UCA reporting and could adversely
affect program spending if unanticipated cost growth occurred.

Recommendation

The Assistant Administrator for Procurement should establish guidelines for consistent
treatment of all undefinitized contract changes in excess of $100,000 but below the
contract dollar threshold level as UCAs requiring Center Director approval.

Management’s Response. Concur. When the estimated cost of a change at the time of
submission is unknown, or exceeds the negotiated dollar threshold negotiated in the basic
contract, the change will be treated as a UCA. Procurement Officers will be reminded of
this policy by the Assistant Administrator for Procurement not later than March 31, 2003.


                                            2
Evaluation of Management’s Response. Management’s planned action for the
recommendation is responsive. The recommendation is resolved but will remain
undispositioned and open until the agreed-to corrective action is completed.

Appendices

Among the appendices, note Appendix E, in particular, which discusses the different
Center policies for classifying and reporting contract changes above $100,000 but below
contract dollar threshold levels.




                                           3
List of Appendices

Appendix A – Status of Recommendation

Appendix B – Background

Appendix C – Objectives, Scope, and Methodology

Appendix D – NASA Actions to Reduce the Use of Undefinitized Contract
             Actions (UCAs)

Appendix E – Center Policies for Processing Changes Below Contract
             Dollar Threshold Levels

Appendix F – Other Matters of Interest

Appendix G – Management’s Comments

Appendix H – Report Distribution




Acronyms Used in the Report

FAR         Federal Acquisition Regulation
FY          Fiscal Year
GAO         General Accounting Office
UCA         Undefinitized Contract Action




                                        4
                 Appendix A. Status of Recommendation

 Recommendation No.           Resolved       Unresolved   Open/ECD*   Closed
          1                      X                        03-31-03

* Estimated Completion Date




                                         5
                               Appendix B. Background

In the past, NASA has relied heavily on undefinitized contract actions (UCAs) to modify
work or initiate new work on its contracts for major programs such as the International
Space Station and the Space Shuttle. In May 2000, the General Accounting
Office (GAO) issued a letter to the Chairman, Committee on Science, House of
Representatives, on Space Station prime contract changes.1 The letter showed that
unnegotiated change orders in fiscal years (FYs) 1998 and 1999 accounted for more than
half of all authorized changes and 98 percent of the costs for changes. NASA
management acknowledged that beginning work on contract changes that have not been
negotiated is not the preferred way of doing business, because the cost of the change is
unknown while the work is being done.

UCAs are a major reason that the GAO included contract management as a major
management challenge for NASA. As of September 1996, NASA had 271 open UCAs
with a total value of more than $450 million. By the year 2000, the number of UCAs was
still about 200, but the total dollar value had increased to more than $2 billion. In a
January 2001 report,2 GAO stated that “relying on unnegotiated changes as a way of
doing business is risky because it increases the potential for additional unanticipated cost
growth.” GAO further stated that NASA’s frequent use of UCAs on the International
Space Station prime contract is contrary to the Federal Acquisition Regulation (FAR) and
puts NASA at risk for unanticipated cost increases.

The FAR states that work on unnegotiated changes should occur on an exception basis
and be limited to urgent requirements. NASA FAR Supplement Part 1843.7003,
“Procedures,” incorporates the FAR requirement. The NASA FAR Supplement also
requires that Center Directors approve in writing all UCAs with an estimated cost or
price greater than $100,000.3 The NASA FAR Supplement does not specifically address
the treatment of undefinitized contract changes that exceed $100,000 but are below the
contract dollar threshold level.




1
  The GAO letter, B-284721, “Space Station: Prime Contract Changes,” was dated May 11, 2000.
2
  GAO’s January 2001 report, “Major Management Challenges and Program Risks, National Aeronautics
and Space Administration,” GAO-01-258, cited contract management as a major management challenge.
3
  The previous Center Director approval level was $1 million.




                                                6
               Appendix C. Objectives, Scope, and Methodology

Objectives

The overall objective was to determine whether NASA had adequately managed
undefinitized contract actions (UCAs). A UCA is an action that allows the contractor to
begin work on contract changes before NASA and the contractor have agreed on the final
estimated cost and fee for those changes. Specifically, we determined whether NASA
contracting officers did the following:

    •   obtained cost estimates prior to issuance of change orders in accordance with
        NASA Federal Acquisition Regulation (FAR) Supplement Part 1843 (see
        Appendix F),
    •   definitized change orders within NASA’s goal of 180 days (see Appendix F), and
    •   accurately reported change order activity to NASA’s Office of Procurement.

Scope and Methodology

We reviewed applicable regulations, policies, and documentation from NASA and other
Government agencies and performed the following:

    •   Reviewed applicable sections of the FAR, NASA FAR Supplement, and other
        NASA guidance relevant to UCAs.
    •   Met with GAO officials to determine the extent of their work regarding UCAs at
        NASA.
    •   Conducted field work at NASA Headquarters and the three NASA Centers that
        historically had issued the largest number and dollar value of UCAs: Johnson
        Space Center (Johnson), Kennedy Space Center (Kennedy), and Marshall Space
        Flight Center (Marshall).
    •   Reviewed a total of 83 UCAs at Johnson (45), Kennedy (27), and Marshall (11) to
        determine whether those actions were completed in accordance with existing
        criteria.
    •   Reviewed seven additional UCAs from a list contained in a FY 2002 Johnson
        Procurement Management Survey Report4 to determine whether the Center had
        revised its processing steps in response to the guidance issued June 29, 2001, by
        the Assistant Administrator for Procurement.
    •   Evaluated a sample of seven changes that Centers classified as supplemental
        agreements to determine whether the changes should have been classified as
        UCAs.




4
 The report was titled, “Procurement Management Survey Report, Johnson Space Center,” and covered the
period February 22 through March 8, 2002.


                                                 7
Appendix C

Management Controls Reviewed

We reviewed the following management controls over the use of undefinitized contract
actions:

   •   FAR Part 43, “Contract Modifications”

   •   FAR Part 16, “Types of Contracts”

   •   NASA FAR Supplement 1843, “Contract Modifications”

   •   NASA Procurement Information Circular (PIC) 01-16, “Class Deviation to the
       NASA FAR Supplement”

   •   NASA Procurement Notice 97-67, “Undefinitized Contract Actions”

Audit Field Work

We conducted audit field work from March through December 2002 at NASA
Headquarters, Johnson, Kennedy, and Marshall. We performed the audit in accordance
with generally accepted government auditing standards.

Prior Audit Coverage

The NASA Office of Inspector General has issued reports related to the use of
undefinitized contract actions. The reports are summarized below. Copies of NASA
reports are available at http://www.hq.nasa.gov/office/oig/hq/audits.html.

“Undefinitized Change Orders,” Report Number HA-95-001, November 9, 1994.
The audit of undefinitized change orders issued under the Space Station Freedom Work
Package contracts at Johnson Space Center showed that managers and contracting
officers were not adequately administering contract changes. As a result, the risk of
unnecessary cost growth under the contracts was high. Management concurred with our
recommendations to limit the use of contract changes and to obtain cost estimates prior to
the issuance of change orders.

“Space Station Change Order Process,” Report Number IG-97-015, March 5, 1997.
We found that the Space Station Program Office had not completed an effort to definitize
old and high-priority changes within a self-imposed deadline. However, the effort was
viable in that the program definitized many of the changes by the deadline, and had
developed realistic plans to definitize the remaining changes within a 4-month period.
We also found that the program had not issued undefinitized changes on an exception
basis as recommended by Federal procurement regulations. The program’s extensive use



                                            8
Appendix C

of undefinitized changes was dictated by a need to maintain schedule. A delay in starting
change directed work pending definitization of the changes orders would have
significantly increased the risk of not completing the Space Station on time.




                                            9
                Appendix D. NASA Actions to Reduce the Use of
                    Undefinitized Contract Actions (UCAs)

Following the June 2001 emphasis by top NASA management, the number of UCAs
decreased as shown below.

                       Reduction in the Number and Dollar Value
                   of UCAs from March 31, 2000, to November 30, 2002


                             Number          Percent                                 Percent
         Date                  Of          Change from         Dollar Value        Change from
                              UCAs         Prior Period        (in millions)       Prior Period

March 31, 2000                  186              --                $2,025                  --
March 31, 2001                  218            +17.2                1,528                -24.5
March 31, 2002                   24            -89.0                   78                -94.9
November 30, 2002                19            -20.1                   61                -21.8

Cumulative Percent                              -89.8*                                  -97.0*
Change*

* We calculated the percentages by subtracting the November 30, 2002, figure (either the number of UCAs
or the dollar value) from the corresponding March 31, 2000, figure and then dividing the result by the
March 31, 2000, figure.




                                                  10
                Appendix E. Center Policies for Processing
              Changes Below Contract Dollar Threshold Levels

Johnson policy required that contracting officers treat all changes that are in excess of
$100,000 but are below the contract dollar threshold as UCA’s if urgency requires that
the contractor begin work before the change is definitized.

Marshall policy required that a Configuration Control Board (Board) review contract
changes including those that were less than the contract dollar threshold. The Board, the
Project Manager, and the Contracting Officer would approve the changes before work
began. The Center Director was not required to approve definitized changes above
$100,000 but below the contract dollar threshold, because the dollar value of the
threshold had been negotiated in the basic contract, and no further contractual adjustment
was required for such changes. However, the Team Lead, Marshall Procurement Office
Policy and Review, stated that if it was necessary for the contractor to begin work on a
change because of urgency before its cost had been definitized, Marshall would treat that
change as a UCA even if the Center anticipated that the cost would be less than the
contractor dollar threshold.

Kennedy’s Joint Base Operations Support Contract did not require that changes in excess
of $100,000 and below the contract dollar threshold level be treated as UCAs and did not
require Center Director approval for these changes.




                                             11
                    Appendix F. Other Matters of Interest

The audit also identified the following issues that require no further management
attention.

   •   We found that NASA complied with NASA Federal Acquisition Regulation
       (FAR) Supplement 1843.7003(b)(1). NASA had not issued change orders
       without setting a ceiling price or “not to exceed” estimated cost figure.

   •   We found that contracting officers had not definitized 49 of 83 undefinitized
       contract actions (UCAs) within NASA’s goal of 180 days. The 49 UCAs were at
       three Centers: 27 at Johnson, 14 at Kennedy, and 8 at Marshall. Sixty of the 83
       UCAs reviewed, including all 49 that had been open over 180 days, had
       originated before the Administrator’s letter of June 7, 2001. Following the
       issuance of that letter, NASA procurement and program management personnel
       began timely action to reduce the number of open UCAs. As of October 31,
       2002, NASA had only two UCAs, valued at $611,000, that were over 180 days
       old.

   •   For one UCA on the International Space Station contract at Johnson Space
       Center, the contracting officer did not obtain oral approval from the Center
       Director as required by the NASA FAR Supplement part 1843.7003. On June 28,
       2002, after advising the Procurement Officer, the contracting officer issued an e-
       mail authorization for the contractor to proceed with the contract change
       estimated to cost $1.6 million before the Center Director had approved the UCA.
       The contracting officer took this action because of the urgency of the work and
       the nonavailability of the Center Director. On July 24, 2002, the Johnson Center
       Director approved the change.




                                           12
Appendix G. Management’s Comments




               13
     Appendix G




14
                      Appendix H. Report Distribution

National Aeronautics and Space Administration (NASA) Headquarters

A/Administrator
AA/Chief of Staff
ADI/Associate Deputy Administrator for Institutions and Asset Management
ADT/Associate Deputy Administrator for Technical Programs
B/Deputy Chief Financial Officer for Financial Management
B/ Deputy Chief Financial Officer for Resources (Comptroller)
BF/Director, Financial Management Division
G/General Counsel
H/Assistant Administrator for Procurement
HK/Director, Contract Management Division
HS/Director, Program Operations Division
J/Assistant Administrator for Management Systems
L/Assistant Administrator for Legislative Affairs
M/Associate Administrator for Space Flight
R/Associate Administrator for Aerospace Technology
S/Associate Administrator for Space Science
Y/Associate Administrator for Earth Science

NASA Centers

ARC/D/Director, Ames Research Center
DFRC/X/Director, Dryden Flight Research Center
GRC/0100/Director, John H. Glenn Research Center at Lewis Field
GSFC/100/Director, Goddard Space Flight Center
JPL/1000/Director, Jet Propulsion Laboratory
JSC/AA/Director, Lyndon B. Johnson Space Center
KSC/AA/Director, John F. Kennedy Space Center
KSC/CC/Chief Counsel, Kennedy Space Center
LaRC/106/Acting Director, Langley Research Center
MSFC/DA01/Director, George C. Marshall Space Flight Center
SSC/AA00/Director, John C. Stennis Space Center


Non-NASA Federal Organizations and Individuals

Assistant to the President for Science and Technology Policy
Deputy Associate Director, Energy and Science Division, Office of Management and
 Budget
Branch Chief, Science and Space Programs Branch, Energy and Science Division, Office
 of Management and Budget




                                         15
                                                                         Appendix H

Non-NASA Federal Organizations and Individuals (Cont.)

Managing Director, Acquisition and Sourcing Management Team, General Accounting
 Office
Senior Professional Assistant, Senate Subcommittee on Science, Technology, and Space

Chairman and Ranking Minority Member – Congressional Committees and
Subcommittees

Senate Committee on Appropriations
Senate Subcommittee on VA, HUD, and Independent Agencies
Senate Committee on Commerce, Science, and Transportation
Senate Subcommittee on Science, Technology, and Space
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on VA, HUD, and Independent Agencies
House Committee on Government Reform
House Subcommittee on Government Efficiency, Financial Management and
 Intergovernmental Relations
House Subcommittee on Technology and Procurement Policy
House Committee on Science
House Subcommittee on Space and Aeronautics

Congressional Member

Honorable Pete Sessions, U.S. House of Representatives




                                         16
                    NASA Assistant Inspector General for Audits
                                 Reader Survey

The NASA Office of Inspector General has a continuing interest in improving the
usefulness of our reports. We wish to make our reports responsive to our customers’
interests, consistent with our statutory responsibility. Could you help us by completing
our reader survey? For your convenience, the questionnaire can be completed
electronically through our homepage at http://www.hq.nasa.gov/office/oig/hq/audits.html
or can be mailed to the Assistant Inspector General for Audits; NASA Headquarters,
Code W, Washington, DC 20546-0001.


Report Title: NASA’s Reduction of Undefinitized Contract Actions

Report Number:                                             Report Date:


Circle the appropriate rating for the following statements.

                                                       Strongly                                Strongly
                                                       Agree      Agree   Neutral   Disagree   Disagree   N/A
1.   The report was clear, readable, and logically        5         4       3          2           1      N/A
     organized.
2.   The report was concise and to the point.               5       4       3          2          1       N/A
3.   We effectively communicated the audit                  5       4       3          2          1       N/A
     objectives, scope, and methodology.
4.   The report contained sufficient information to         5       4       3          2          1       N/A
     support the finding(s) in a balanced and
     objective manner.

Overall, how would you rate the report?

      Excellent              Fair
      Very Good              Poor
      Good
If you have any additional comments or wish to elaborate on any of the above
responses, please write them here. Use additional paper if necessary.




                                                      17
How did you use the report?




How could we improve our report?




How would you identify yourself? (Select one)

       Congressional Staff                       Media
       NASA Employee                             Public Interest
       Private Citizen                           Other:
       Government:            Federal:              State:         Local:


May we contact you about your comments?

Yes: ______                                    No: ______

Name: ____________________________

Telephone: ________________________



Thank you for your cooperation in completing this survey.




                                          18
Additional Copies

To obtain additional copies of this report, contact the Assistant Inspector General for
Audits at (202) 358-1232.


Suggestions for Future Audits

To suggest ideas for or to request future audits, contact the Assistant Inspector General
for Audits. Ideas and requests can also be mailed to:

     Assistant Inspector General for Audits
     Code W
     NASA Headquarters
     Washington, DC 20546-0001


NASA Hotline

To report fraud, waste, abuse, or mismanagement, contact the NASA OIG Hotline at (800)
424-9183, (800) 535-8134 (TDD), or at www.hq.nasa.gov/office/oig/hq/hotline.html#form;
or write to the NASA Inspector General, P.O. Box 23089, L’Enfant Plaza Station,
Washington, DC 20026. The identity of each writer and caller can be kept confidential,
upon request, to the extent permitted by law.



Major Contributors to the Report
Lorne A. Dear, Program Director, Procurement Audits

Patrick A. Iler, Program Manager, Procurement Audits

Walter K. Curtis, Auditor-in-Charge

Amy L. Larkin, Auditor

Kimberly R. LaRock, Auditor

Lydia C. Lyn, Auditor

Iris T. Purcarey, Program Assistant
